la
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED JULY 24, 2019
United States Court of Appeals
Fifth Judicial Circuit
A True Copy
Certified order issued July 24, 2019
s/ Lyle W. Cayce
Clerk, U.S. Court of Appeals, Fifth Circuit

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50669
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
PAUL ROSS EVANS,
Defendant-Appellant
Appeal from the United States District Court for the
Western District of Texas
ORDER:
Paul Ross Evans, federal prisoner # 83230-180,
pleaded guilty, pursuant to a written agreement un­
der Federal Rule of Criminal Procedure 11(c)(1)(C),
to a weapon-of-mass-destruction offense and was
sentenced under the terms of his plea agreement.
Evans now seeks a certificate of appealability (COA)
from the denial of his motion for relief from the dis­
trict court’s judgment dismissing his amended 28

2a
U.S.C. § 2255 petition. He also requests appointment
of counsel. The district court construed Evans’s
pleading—which invoked Federal Rule of Civil Pro­
cedure 60(b)—as a successive and unauthorized §
2255 motion and dismissed it for lack of jurisdiction.
See § 2255(h).
To obtain a COA, Evans must make “a substan­
tial showing of the denial of a constitutional right.”
See 28 U.S.C. § 2253(c)(2). To satisfy this standard,
Evans must demonstrate that “jurists of reason could
disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude
the issues presented are adequate to deserve encour­
agement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 327 (2003). When, as here, the district
court dismissed the motion on a procedural ground
without reaching the merits, the movant must show
“that jurists of reason would find it debatable
whether the petition states a valid claim of the de­
nial of a constitutional right and that jurists of rea­
son would find it debatable whether the district court
was correct in its procedural ruling.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000).
Evans’s amended § 2255 motion was voluntarily
dismissed without prejudice prior to an adjudication
on the merits. He now claims that his defense coun­
sel fraudulently induced him to dismiss this motion.
To the extent that Evans “attacks ‘some defect in the
integrity of the federal habeas proceedings,’ rather
than the resolution on the merits,” reasonable jurists
would debate the district court’s dismissal of his Rule
60(b) motion as a second or successive petition. 7n re
Edwards, 865 F.3d 197, 204 (5th Cir. 2017) (quoting
Gonzalez v. Crosby, 545 U.S. 524, 532 (2005)); see
also Slack, 529 U.S. at 489 (holding that “a habeas

3a
petition filed after an initial petition was dismissed”
for failure to exhaust state remedies “without an ad­
judication on the merits is not a ‘second or succes­
sive’ petition”).
Yet Evans has not made the required showing of
a debatable constitutional claim. His amended §
2255 motion asserts that he was improperly sen­
tenced as a career offender under the U.S. Sentenc­
ing Guidelines, citing to Johnson v. United States,
135 S. Ct. 2551 (2015). The record demonstrates,
however, that Evans was not sentenced under the
career offender provision of the Guidelines. Rather,
Evans was sentenced in accordance with his Rule
11(c)(1)(C) plea agreement. Even if the district court
had enhanced Evans’s sentence based on his prior
convictions, the definition of “crime of violence” in §
4B1.2(a) of the Guidelines is not unconstitutionally
vague. See Beckles u. United States, 137 S. Ct. 886,
890(2017).
In his COA motion, Evans also seeks to challenge
his plea agreement. This claim was not raised in his
amended § 2255 petition, and reasonable jurists
would not debate the district court’s dismissal of this
new claim as second or successive. See Edwards, 865
F.3d at 203-04. Even if the district court’s proce­
dural ruling were debatable, Evans’s underlying con­
stitutional claim fails to meet the standard required
for a COA. The statutory sentencing range for Ev­
ans’s offense was not affected by his prior convictions
and the sentence agreed to in his plea agreement
does not exceed the statutory maximum. See 18
U.S.C. § 2332a(a); cf. United States v. Peppers, 899
F.3d 211, 225-26 (3d Cir. 2018) (holding that a Rule
11(c)(1)(C) plea agreement does not bar a collateral

4a
attack under Johnson, 135 S. Ct. 2551, if the agreedupon sentence exceeds the statutory maximum).
Accordingly, IT IS ORDERED that Evans’s mo­
tion for a COA is DENIED. His request for the ap­
pointment of counsel is also DENIED.
si Stephen Higgonson
STEPHEN A. HIGGONSON
UNITED STATES CIRCUIT JUDGE

5a
APPENDIX B — ORDER OF THE FIFTH
CIRCUIT DENYING RECONSIDERATION,
FILED SEPTEMBER 26, 2019
Date Filed: 09/26/2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50669
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
PAUL ROSS EVANS,
Defendant - Appellant
Appeal from the United States District Court for the
Western District of Texas
Before JONES, HIGGINSON, and OLDHAM, Circuit
Judges.
PER CURIAM:
A member of this panel previously denied appel­
lant’s motion for a certificate of appealability and for
appointment of counsel. The panel has considered
appellant's' motion for reconsideration. IT IS
ORDERED that the motion is DENIED.

6a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS,
FILED MAY 24, 2018
FILED
2018 MAY 24 AM 9:17
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
Case No. A-07-CR-098-SS
No. A-16-CV-446-SS
PAUL ROSS EVANS,
Movant,
-vsUNITED STATES OF AMERICA,
Respondent.
ORDER
Before the Court is Movant Paul Ross Evans's
Rule 60(b) Motion for Relief from Judgment. Evans
previously challenged his conviction in a Motion to
Vacate, Set Aside or Correct Sentence pursuant to 28
U.S.C. § 2255. On May 25, 2017, the Court dismissed
the motion as time-barred.
Evans's most recent motion is essentially a suc­
cessive § 2255 motion. However, Evans has not ob­
tained permission to file a successive motion to va­
cate, set aside or correct sentence. See Gonzalez u.
Crosby, 545 U.S. 524, 530-32 & n. 4, 125 S. Ct. 2641
(2005). Because section 2244(b)(3)(A) "acts as a juris-

7a
dictional bar to the district court's asserting jurisdic­
tion over any successive habeas petition until [the
Fifth Circuit] has granted the petitioner permission
to file one," the district court is without jurisdiction
to consider the action. United States v. Key, 205 F.3d
773, 774 (5th Cir. 2000).
It is therefore ORDERED that the Rule 60(b)
Motion for Relief from Judgment [#76], filed by
Movant on May 21, 2018, is DISMISSED
WITHOUT PREJUDICE for want of jurisdiction.
It is further ORDERED that a certificate of ap­
pealability is DENIED, as reasonable jurists could
not debate the dismissal of the movant's motion on
substantive or procedural grounds, nor find that the
issues presented are adequate to deserve encour­
agement to proceed. Miller-El u. Cockrell, 537 U.S.
322, 327 (2003).
SIGNED this the 23rd day of May 2018.
s/ Sam Sparks
SAM SPARKS
SENIOR UNITED STATES DISTRICT JUDGE

8a
APPENDIX D — ORDER OF THE DISTRICT
COURT DENYING RECONSIDERATION,
FILED JUNE 22, 2018
FILED
18 JUNE 22 AM 9:54
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
Case No. A-07-CR-098-SS
No. A-16-CV-446-SS
PAUL ROSS EVANS,
Movant,
-vsUNITED STATES OF AMERICA,
Respondent.
ORDER
Before the Court is Movant Paul Ross Evans's
"Motion to Alter or Amend a Judgment." Evans re­
quests the Court to reconsider its May 23, 2018 Or­
der, denying his "Rule 60(b) Motion for Relief from
Judgment."
Evans previously challenged his conviction in a
Motion to Vacate, Set Aside or Correct Sentence pur­
suant to 28 U.S.C. § 2255. On May 25, 2017, the
Court dismissed the motion as timebarred. The Fed­
eral Public Defender filed an additional § 2255 mo­
tion on behalf of Evans on June 23, 2016, raising a
claim under Johnson v. United States, 135 S. Ct.
2551(2015). That motion was voluntarily dismissed

9a
on May 23, 2017, after the Supreme Court issued its
decision in Beckles v. United States, 137 S. Ct. 886
(2017), holding the Sentencing Guidelines are not
subject to vagueness challenges under Johnson.
On May 21, 2018, Evans filed a "Rule 60(b) Mo­
tion for Relief from Judgment," attempting to assert
a claim under Sessions u. Dimaya, 138 S. Ct. 1204
(2018). The Court held Evans's motion was essen­
tially a successive § 2255 motion over which this
Court has no jurisdiction.
In the instant motion Evans requests the Court to
reconsider its order. He argues he is seeking recon­
sideration of the voluntary dismissal of the § 2255
motion filed by the Federal Public Defender. He ar­
gues the dismissal was obtained by fraud. He further
argues his § 2255 motion was dismissed prema­
turely.
As explained previously, Evans has not obtained
permission to file a successive motion to vacate, set
aside or correct sentence. See Gonzalez v. Crosby, 545
U.S. 524, 530-32 & n. 4, 125 S. Ct. 2641 (2005). Be­
cause section 2244(b)(3)(A) "acts as a jurisdictional
bar to the district court's asserting jurisdiction over
any successive habeas petition until [the Fifth Cir­
cuit] has granted the petitioner permission to file
one," the district court is without jurisdiction to con­
sider the action. United States u. Key, 205 F.3d 773,
774 (5th Cir. 2000). Accordingly, his motion is de­
nied.
It is therefore ORDERED that the Motion to Al­
ter or Amend Judgment [#78], filed by Movant on
June 15, 2018, is DENIED.
It is further ORDERED that a certificate of ap­
pealability is DENIED, as reasonable jurists could
not debate the dismissal or denial of the movant's

10a
motion on substantive or procedural grounds, nor
find that the issues presented are adequate to de­
serve encouragement to proceed. Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
SIGNED this the 21st day of June 2018.
s/ Sam Sparks
SAM SPARKS
SENIOR UNITED STATES DISTRICT JUDGE

j\

A

